TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Modernization and Information
                     Technology Services Organization Is
                 Effectively Planning for the Implementation
                          of the Affordable Care Act



                                      September 19, 2011

                              Reference Number: 2011-20-105




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                HIGHLIGHTS


THE MODERNIZATION AND                               created a new organization called the Associate
INFORMATION TECHNOLOGY                              Chief Information Officer Affordable Care Act –
SERVICES ORGANIZATION IS                            Program Management Office, and obtained
EFFECTIVELY PLANNING FOR THE                        staffing and funding. A Program Governance
                                                    Board Charter was approved and a governance
IMPLEMENTATION OF THE
                                                    plan was prepared. However, the governance
AFFORDABLE CARE ACT                                 plan did not include escalation procedures for
                                                    unresolved issues or critical decisions.

Highlights                                          WHAT TIGTA RECOMMENDED

Final Report issued on                              TIGTA recommended that the Chief Technology
                                                    Officer ensure that the Modernization and
September 19, 2011
                                                    Information Technology Services organization’s
                                                    Affordable Care Act – Program Management
Highlights of Reference Number: 2011-20-105         Office governance plan is updated to include
to the Internal Revenue Service Chief               escalation procedures to timely address
Technology Officer.                                 unresolved issues and critical decisions.
IMPACT ON TAXPAYERS                                 In their response to the report, IRS management
On March 23, 2010, the Patient Protection and       agreed with the recommendation. The IRS
Affordable Care Act was signed into law and         plans to include the escalation procedures in the
later amended on March 30, 2010, by the Health      Affordable Care Act – Program Management
Care and Education Reconciliation Act               Office governance plan.
(hereafter referred to together as the Affordable
Care Act). The Internal Revenue Service’s
Modernization and Information Technology
Services organization is effectively planning the
information technology work needed to
implement the Affordable Care Act. The
information technology work needed to
implement the Affordable Care Act provisions
will assist in providing taxpayers with the
subsidies and tax credits needed to cover the
cost of their health care coverage as well as
provide the capability to administer multiple tax
provisions designed to raise revenue to offset
the cost of health care reform.
WHY TIGTA DID THE AUDIT
This audit was initiated to evaluate the
Modernization and Information Technology
Services organization’s planning efforts to
implement the Affordable Care Act.
WHAT TIGTA FOUND
The Modernization and Information Technology
Services organization planned an effective
approach to address the information technology
work needed to implement the Affordable Care
Act provisions. For example, it determined the
Affordable Care Act’s impact on its organization,
                                                    DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  September 19, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Modernization and Information Technology
                                 Services Organization Is Effectively Planning for the Implementation
                                 of the Affordable Care Act (Audit # 201120020)

 This report presents the results of our review to evaluate the Modernization and Information
 Technology Services organization’s planning efforts to implement the Patient Protection and
 Affordable Care Act1 and the Health Care and Education Reconciliation Act.2 This audit is
 included in our Fiscal Year 2011 Annual Audit Plan and addresses the major management
 challenge of Implementing Health Care and Other Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.




 1
     Pub. L. No. 111-148, 124 Stat. 119 (2010).
 2
     Pub. L. No. 111-152, 124 Stat. 1029.
                                  The Modernization and Information Technology
                                Services Organization Is Effectively Planning for the
                                     Implementation of the Affordable Care Act




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Modernization and Information Technology Services Organization
          Planned an Effective Approach to Address the Information Technology
          Work Needed to Implement the Affordable Care Act Provisions ................ Page 3
                    Recommendation 1:........................................................ Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Management’s Response to the Draft Report ...................... Page 18
          The Modernization and Information Technology
        Services Organization Is Effectively Planning for the
             Implementation of the Affordable Care Act




                  Abbreviations

ACA         Affordable Care Act
HIRIF       Health Insurance Reform Implementation Fund
IRS         Internal Revenue Service
IT          Information Technology
MITS        Modernization and Information Technology Services
TIGTA       Treasury Inspector General for Tax Administration
                               The Modernization and Information Technology
                             Services Organization Is Effectively Planning for the
                                  Implementation of the Affordable Care Act




                                                 Background

On March 23, 2010, the Patient Protection and Affordable Care Act1 was signed into law and
later amended on March 30, 2010, by the Health Care and Education Reconciliation Act2
(hereafter referred to together as the ACA). At least 42 provisions add to or amend the Internal
Revenue Code, and at least 8 require the Internal Revenue Service (IRS) to build new processes
that do not exist in current tax administration. These provisions provide incentives and tax
breaks to individuals and small businesses to offset health care expenses. They also impose
penalties, administered through the tax code, for individuals and businesses that do not obtain
health coverage for themselves or their employees. Other
provisions raise revenue to help pay for the overall cost of
health insurance reform.                                          The IRS is responsible for
                                                                 administering the various
The Department of Health and Human Services has the               tax provisions included in
lead role in all health insurance and health care policy         the  ACA, the largest set of
provisions of the ACA. Several other agencies are               tax  law changes in 20 years.
involved in the implementation of the legislation: the
Department of Defense, the Department of Veterans Affairs, the Social Security Administration,
and the Department of the Treasury/IRS. The IRS is responsible for administering the various
tax provisions included in the new law—the largest set of tax law changes in 20 years. The ACA
contains $438 billion worth of revenue provisions in the form of new taxes and fees. It also
contains credits that provide incentives for medical research and for businesses to offer
employees health care insurance. In addition, new reporting requirements have been established
for certain business transactions. The ACA is in effect from March 2010 through January 2018.
The Modernization and Information Technology Services’ (MITS) Applications Development
organization builds, tests, delivers, and maintains integrated software solutions to achieve the
vision and objectives of the IRS. However, the IRS realized the vastness of the work required by
the ACA and, in June 2010, created a new organization called the Associate Chief Information
Officer Affordable Care Act – Program Management Office (hereafter called the Program
Management Office) to mitigate any impact to its ongoing development efforts and to ensure
successful delivery of the required new systems. The Program Management Office has
responsibility for developing the system solutions to support and execute the IRS’s portion of the
ACA. The Program Management Office will be accountable for achieving the defined goals and
for managing and integrating the required components, including building new services and
applications, enhancing and extending existing applications, and ensuring that the appropriate


1
    Pub. L. No. 111-148, 124 Stat. 119 (2010).
2
    Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                             Page 1
                         The Modernization and Information Technology
                       Services Organization Is Effectively Planning for the
                            Implementation of the Affordable Care Act



governance and control processes are followed throughout implementation. The information
technology (IT) work needed to implement the ACA provisions will assist in providing taxpayers
with the insurance premium subsidies and tax credits needed to cover the cost of their health care
coverage as well as providing the capability to administer multiple tax provisions designed to
raise revenue to offset the cost of health care reform.
This review is one in a series of audits included in the Treasury Inspector General for Tax
Administration’s (TIGTA) oversight of the ACA implementation. ACA audits currently in
progress include:
   •   Overall Planning for the Implementation of the ACA (Audit # 201140025).
   •   Review of the Small Business Health Care Tax Credit (Audit # 201040045).
   •   Review of the Excise Tax on Indoor Tanning Services (Audit # 201140001).
This review was performed at the Program Management Office in Memphis, Tennessee, during
the period October 2010 through July 2011. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 2
                           The Modernization and Information Technology
                         Services Organization Is Effectively Planning for the
                              Implementation of the Affordable Care Act




                                   Results of Review

The Modernization and Information Technology Services Organization
Planned an Effective Approach to Address the Information
Technology Work Needed to Implement the Affordable Care Act
Provisions
The Internal Revenue Manual establishes policy, procedures, and responsibility for organizing
the mission, functions, and structure of the IRS. The following definitions, principles, and
procedures apply to all IRS organizational elements and activities. In addition, IRS
organizational structures shall be established according to existing organization and staffing
guidelines. Regardless of scope, all reorganizations begin with defining the need, planning
changes to meet the need, and preparing the proposal to fully inform the approving official.
Requirements of a proposal include addressing the following items.
    •   Purpose – State the purpose of the proposed changes in terms of the business need and
        the results the reorganization is expected to achieve.
    •   Impacts/issues – Identify impacts of the reorganization on other organizations or other
        agencies, and describe any coordination that was or will be done.
    •   Staffing – Show and explain differences between the current and proposed staffing
        charts. The explanation should highlight any staffing increases or variance from existing
        staffing guidelines and justify the differences.
    •   Cost/benefit analysis – List and analyze costs, savings, and benefits – particularly those
        for personnel, support services (e.g., space, equipment, relocation, telecommunications,
        and supplies), and any intangible costs and benefits. Explain or propose how additional
        costs will be funded and the points in time when funds will be required.
    •   Mission and functional statements – Provide current and proposed mission and
        functional statements for the division level and above. Account for each current function,
        and explain additions and deletions.
Although a proposal as described in the Internal Revenue Manual was not prepared, the MITS
organization addressed the items listed above and received IRS Executive Resources Board3
approval in August 2010 to fill four key executive positions within the Program Management

3
 Core members are the Deputy Commissioner for Services and Enforcement; Deputy Commissioner for Operations
Support; Chief of Staff; Chief, Equal Employment Opportunity and Diversity; and IRS Human Capital Officer.
                                                                                                   Page 3
                         The Modernization and Information Technology
                       Services Organization Is Effectively Planning for the
                            Implementation of the Affordable Care Act



Office. The Program Management Office Charter states that the organization was created in
order to ensure a dedicated focus on fulfilling ACA requirements. The Program Management
Office had several concurrent tasks to complete as part of planning and implementing the ACA.
These tasks included establishing the general framework for how the Program Management
Office will operate; determining preliminary staffing and budget requirements; partnering with
business owners, external stakeholders, and service delivery organizations; developing a timeline
for anticipated project delivery; defining the governance board and its members; and identifying
how projects will be delivered.
The Program Management Office contracted with several vendors to provide consulting and
advisory services to assist with the office’s overall design and implementation, as well as its
resource planning. For example, one vendor assisted with refining the resource model to identify
skill and knowledge requirements and the Federal employee/contractor mix, and with assessing
the effectiveness of risk mitigation plans developed for each project. Another vendor was tasked
with creating and maintaining an integrated, networked, and multilayered Integrated Master
Schedule containing all of the detailed work and planning packages (and lower level tasks or
activities) necessary to support the events, accomplishments, and criteria of the Program
Management Office.
Both the Program Management Office and the ACA business executive stated that the ACA
legislation should not have a significant impact on other MITS organization work because the
MITS organization received separate funding from the Department of Health and Human
Services to hire staff and contractors for the ACA work. Although the methodology for
evaluating the impact was not documented, the results were captured in several documents. The
impact analysis of the ACA provisions on the legacy IT systems was shared with applicable
stakeholders. We reviewed impact, staffing, and funding information. The results of our review
are below.

The MITS organization determined the ACA’s impact on its organization
MITS organization management stated that they took a multifaceted approach to assessing the
impact of the ACA legislation. First, to understand the legislation itself, they worked closely and
very early on with the business teams (e.g., the IRS ACA business executive and representative
from the Office of Chief Counsel) as they reviewed and analyzed the legislation from a business
perspective. Some ACA provisions were effective upon enactment [e.g., the credit for employee
health insurance expenses of small businesses (Provision 1421) and the Qualifying Therapeutic
Discovery Project Credit (Provision 9023) were effective March 23, 2010]. Other provisions
become effective starting each year from 2010 to 2015, with the final provision for the excise tax
on high-cost, employer-sponsored health coverage becoming effective on January 1, 2018.
While completing this legislative review, IRS management realized several challenges the ACA
would present to the organization. For example:


                                                                                            Page 4
                                 The Modernization and Information Technology
                               Services Organization Is Effectively Planning for the
                                    Implementation of the Affordable Care Act



       •   Implementation of the provisions requires delivery of a large number of interdependent
           projects in a short span of time.
       •   Collaboration will become critical as a significant number of stakeholders, both internal
           and external to the IRS, are affected by the legislation.
       •   Requirements to exchange information means the Program Management Office will need
           to develop methods for cross-agency systems integration and data sharing.
MITS organization management further explained that they used information about the
legislative requirements and compared it with information about the existing architecture to
determine the level of impact and timing of that impact on its legacy IT environment.
Management stated they provided the results of this analysis to business and internal IT
stakeholders. Substantial changes to the IT systems would be required to receive new types of
data and accurately calculate the advanced premium assistance credit for individuals and the new
penalty provisions affecting individuals and employers, as well as detecting fraudulent claims.
For example:
       •   The Subsidy Payment and Reconciliation project4 will have a minor to significant impact
           across the different tax return and compliance processing functions in January 2014.
       •   The Branded Prescription Drug Fee project will have a minor to medium impact on the
           IRS legacy systems in May 2011 and/or in January 2012.
       •   The Fraud Detection project will have a major impact on the fraud detection system when
           tax returns begin to arrive in January 2015 because new identifiers will be required for
           potential fraud regarding a filer’s health care coverage.
Another challenge area identified by the Program Management Office included the need to staff
projects with the required knowledge and skills. With the assistance of a vendor, it began by
defining the work needed to meet the IT responsibilities of the provisions. It then reviewed
similar projects (in terms of complexity and type) and the vendor used its knowledge of private
sector projects as input to determine the number and types of employees needed and the skills
they should possess. Computer engineers, computer scientists, and IT specialists with skills in
specific programming languages and development processes are examples of the types of
employees that were identified as being needed. Program Management Office management
stated that the initial staffing model was refined as they learned more about the business needs.
We determined that the process used to identify the staffing needs was adequate. To address
future needs, the Program Management Office participated in a MITS-wide effort to identify
resource requirements across essential projects, including the ACA, and potential areas of
resource contention. On April 20, 2011, MITS organization management stated that the results
of this effort were still being developed, and by May 16, 2011, we had not received the results.

4
    See Figure 6 for the current list of ACA projects.
                                                                                               Page 5
                                 The Modernization and Information Technology
                               Services Organization Is Effectively Planning for the
                                    Implementation of the Affordable Care Act



The Program Management Office obtains staffing and funding
As part of its resource planning, the Program Management Office entered into staffing
negotiations with the Department of the Treasury and the Office of Personnel Management. In
July 2010, the Office of Personnel Management approved the IRS’s use of direct hire authority
to support the ACA implementation. This authority provided for the hiring of up to
355 positions by December 31, 2010.5 The majority of these positions would support the
Program Management Office; however, some positions would also be provided to the other
MITS organization delivery partners. The first wave of direct hires entered on duty in
September 2010.
As of April 2011, 368 employees were assigned to ACA-related work within the MITS
organization: 255 in the Program Management Office and 113 in the MITS organization
delivery partner organizations. The Program Management Office stated that the current staffing
is adequate for the current workload. The Program Management Office plans to hire additional
people as more projects are initiated and will reevaluate its staffing needs as it works with the
IRS operating divisions to refine the business requirements.
The ACA legislation established a $1 billion fund, called the Health Insurance Reform
Implementation Fund (HIRIF), to pay for Federal administrative expenses to carry out the ACA.
The HIRIF is administered by the Department of Health and Human Services, which makes
disbursements to requesting agencies based on supporting documentation submitted to justify
expenditures. The MITS organization prepared a budget for each of the years the ACA has been
in effect. As shown in Figure 1, funding for Fiscal Years 2010 – 2011 is from the HIRIF and the
IRS Operations Support Fund. In Fiscal Year 2012, the IRS plans to fund ACA work through
the normal budget process.
                                Figure 1: MITS ACA Budget and Funding

                                                                               Actual IRS
                                                                               Operations
     Fiscal                            HIRIF             Actual HIRIF         Support Funds
     Year          Budget             Allocation         Funds Spent              Spent         Total Spent

     2010        $15,000,000         $14,555,389          $13,396,098             $4,573,991   $17,970,089

     2011       $144,763,709        $37,307,985*          $28,886,385*            $393,980*    $29,280,365*

     2012      $188,800,000**       Not applicable       Not applicable       Not applicable   Not applicable

Source: IRS Chief Financial Officer and the TIGTA’s Office of Mission Support, Finance and Accountability.
* = As of April 30, 2011. ** = Pending congressional approval.



5
    The direct hire authority was subsequently extended until January 31, 2011.
                                                                                                        Page 6
                           The Modernization and Information Technology
                         Services Organization Is Effectively Planning for the
                              Implementation of the Affordable Care Act



To help ensure appropriate use of the HIRIF, the MITS organization issued a memorandum
outlining how to apply time charges for personnel costs. Further, the Chief Financial Officer
organization established accounting and timekeeping codes to track the use of the funds and the
time spent on ACA work, respectively.

The Program Management Office established its mission and functions
With its efforts to hire staff underway, the Program Management Office needed to establish a
framework for how it would ensure success and mitigate risk. The MITS ACA Charter states
that its mission is to develop the IT systems to support and execute the IRS’s portion of the
ACA. This includes ensuring that the appropriate governance and control processes are followed
throughout implementation. Part of that process included identifying the organizational structure
of the Program Management Office. Figure 2 depicts the functional view of the Program
Management Office. Although the Chief Architect and Chief Engineer functionally support the
Program Management Office, organizationally they reside in the Enterprise Services
organization.
                    Figure 2: Program Management Office Functions




 Source: IT ACA Program Management Office All Hands Meeting briefing, dated February 24, 2011.
 Note: PMO = Program Management Office.

The Program Management Office established the following functions to implement the ACA.
   •   The Program Strategy and Integration function will maintain and provide innovative and
       professional-level strategic planning, analysis, assessment, and monitoring to assist in the
       development, implementation, and management of systems and applications.
   •   The Management Services function is responsible for contract management and
       administrative services (e.g., human resources and financial) for the organization.
   •   The Implementation and Testing function will collaborate with the business and IT
       partners to validate the design, development, integration, and implementation of
       applications.

                                                                                                 Page 7
                              The Modernization and Information Technology
                            Services Organization Is Effectively Planning for the
                                 Implementation of the Affordable Care Act



    •    The Compliance Document Matching and Industry Fees function is responsible for the
         design, development, implementation, and support of new applications necessary to
         ensure compliance and prevent fraud.
    •    The Core Health Systems function will design, develop, implement, and support all
         applications necessary to collect, store, manage, and share ACA data.
    •    A dedicated ACA Architect and Engineer will ensure that the technical solutions adhere
         to the overarching business and technology architecture and engineering principles,
         standards, and practices.
    •    The Legislative Implementation function works with the IRS operating divisions to
         ensure that work requests submitted to implement ACA provisions have sufficient
         information and to monitor the work requests to completion.
The Clinger-Cohen Act of 19966 requires agencies to use a disciplined capital planning and
investment control process to maximize the value of IT investments and manage the acquisition
risk. The Enterprise Governance Authority and Operations Directive, dated November 25, 2008,
establishes mandates for governance within the IRS and states that a governance process shall be
integrated with the IRS capital planning and investment control process. Governance boards
make various decisions such as determining whether projects will proceed to the next
development phase, be suspended, or be terminated and approving cost, schedule, and scope
changes within their chartered authority. The IRS Capital Planning and Investment Control
Guide dated January 2010 states that IRS senior managers should regularly monitor and track the
progress/performance of ongoing IT investments against projected cost, schedule, performance
measures, and delivered quantitative and qualitative benefits throughout the development or
acquisition lifecycle.
A Program Management Office Charter and a Program Governance Board Charter were
approved January 2011 and March 2011, respectively. The Program Management Office
referred to the governance plans of prior major IT modernization efforts to help shape the
governing roles and responsibilities. The Program Management Office Charter presents the
proposed startup governance model and the roles and responsibilities of each governance entity.
The Program Governance Board Charter outlines the objective of the Program Governance
Board as follows: “to ensure project and program objectives are met, risks are managed
appropriately, and the expenditure of enterprise resources is fiscally sound.” Figure 3 provides
an illustration of the governance entities and defines the members involved. Although Figure 3
indicates the information is proposed/preliminary, Program Management Office management


6
 Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 8
                           The Modernization and Information Technology
                         Services Organization Is Effectively Planning for the
                              Implementation of the Affordable Care Act



confirmed that this was the final version of the governance entities, and it is the version from
which they are operating.
                             Figure 3: ACA Governance Entities




Source: MITS Support for Implementing Healthcare Reform: Program Governance, dated September 28, 2010.
Note: ACIO = Associate Chief Information Officer. BOD = Business Operating Division. CIO = Chief
Information Officer. CTO = Chief Technology Officer. PMO = Program Management Office.

According to the Program Management Office Charter, a governance plan establishes the
governance framework, defines the decision rights across various entities, and describes an
escalation path for unresolved issues or critical decisions. The Program Management Office
provided a finalized governance plan titled MITS Support for Implementing Healthcare Reform:
Program Governance, dated September 28, 2010. Although the plan did not include the
escalation path for unresolved issues or critical decisions, it did include a chart illustrating the
decision rights of the various governance entities. See Figure 4 for examples of some of the
decision rights for the ACA governance entities.



                                                                                                  Page 9
                           The Modernization and Information Technology
                         Services Organization Is Effectively Planning for the
                              Implementation of the Affordable Care Act



              Figure 4: Decision Rights for the ACA Governance Entities




Source: MITS Support for Implementing Healthcare Reform: Program Governance, dated September 28, 2010.
Note: CTO = Chief Technology Officer. ELC = Enterprise Life Cycle. KPI = Key Performance Indicator. PMO =
Program Management Office.

Based on our review of the Program Governance Board meeting minutes, we determined that the
Program Governance Board is meeting as intended. For example, topics of discussion include
project changes, upcoming milestone exits, and outstanding work requests. Examples of
decisions include approvals to launch a database repository and the household income and family
size verification project. Examples of action items include working with the Enterprise
Operations organization to resolve the ACA environment issue and working with the
Applications Development organization to minimize the impact on filing season projects. The
final governance plan provided to us indicated a need to complete the establishment of the
governance process. It identified documentation of “rules for the road” for how governance will
operate to foster efficiency and decision making (i.e., decisions on escalations must occur within
a certain time period) as a next step in the process. Based on the level of executive oversight and
involvement overseeing the implementation of the ACA, the undocumented escalation
procedures currently do not present a high risk to the Program Management Office. However,
                                                                                                Page 10
                             The Modernization and Information Technology
                           Services Organization Is Effectively Planning for the
                                Implementation of the Affordable Care Act



documenting the escalation procedures will ensure that all involved in the governance process
have access to the procedures. This is especially important when there is turnover in governance
board members. Program Management Office management agreed that the escalation
procedures were not documented, but should be, and stated that the omission was due to an
oversight.
The Program Management Office also established guidelines to determine who would primarily
be responsible for completing the various types of ACA work. See Figure 5 for the description
and examples of the four ACA project types.
                Figure 5: Description and Examples of ACA Project Types

  Project Type                      Description of Project Type                                Example
  Type 1 – “Brand      The Program Management Office is responsible for completing       Build a large data
  new business         Type 1 projects. These projects are new builds that represent     repository to
  service”             “uncharted territory.” Dedicated teams with specialized skills    consolidate healthcare
                       will be deployed to deliver the solution. This work may be        data from numerous
                       outsourced to contractors.                                        sources.
  Type 2 – “New        The Program Management Office is responsible for completing Levy new fees on
  version of           Type 2 projects. These projects are new builds that can          insurance companies.
  existing service”    leverage existing IT capabilities. Dedicated teams will be
                       deployed to drive development. The Program Management
                       Office will be responsible for new capability building, but will
                       also leverage established processes.
   Type 3 –            The Program Management Office is responsible for completing       Add information on
  “Enhancements to     Type 3 projects. These represent extensions of existing           health plan costs to the
  existing services”   services that can leverage existing processes and capabilities.   Wage and Tax
                       The Program Management Office will oversee project                Statement
                       execution and deploy a “light touch” team to drive project        (Form W-2).
                       execution. Team members will include those from the MITS
                       organization delivery partners.
  Type 4 – “Tax        The MITS organization delivery partners are accountable and       Change tax rate for
  law changes or       responsible for completing and delivering Type 4 projects.        high-income taxpayers.
  enhancements to      The Program Management Office role will be oversight.
  existing systems”
Source: IRS Program Management Office Charter (Information Technology), Version 1.0, dated January 3, 2011,
and MITS ACA training, Session 3 revised January 2011.

The Program Management Office is identifying and scheduling required IT work
Although the process used to identify and schedule the IT work for the ACA was not
documented, the results from the process were documented. Program Management Office
management explained that MITS organization senior executives met with representatives from

                                                                                                           Page 11
                         The Modernization and Information Technology
                       Services Organization Is Effectively Planning for the
                            Implementation of the Affordable Care Act



the IRS operating divisions and the Office of Chief Counsel to assess the ACA legislation and
identify the critical business needs and key dates. Based on that information, the Program
Management Office organization prepared a preliminary, high-level schedule listing 7 categories
and 17 related projects. Program Management Office management stated that 14 of these
projects will require building new systems or building a new system and leveraging existing
systems to implement the ACA provisions. The remaining three projects may require new
systems but this will not be confirmed until the business requirements are finalized. Figure 6
shows the seven categories and the related projects.
                         Figure 6: ACA Categories and Projects




    Source: MITS Support for Implementing Health Care Reform, dated April 5, 2011.
    Note: FAFSA = Free Application for Federal Student Aid. HAS [sic] = Health Savings Account.
    HHS = Department of Health and Human Services. MSA = Medical Savings Account.
    PCORTF = Patient-Centered Outcomes Research Trust Fund. W2 = Wage and Tax Statement (Form W-2).

                                                                                             Page 12
                         The Modernization and Information Technology
                       Services Organization Is Effectively Planning for the
                            Implementation of the Affordable Care Act



Another challenge identified by the Program Management Office during the early deliberations
included that system requirements would evolve and might be discovered during development.
To address and mitigate the impact of this challenge, the Program Management Office
implemented processes to ensure that the projects meet business needs and are timely completed.
For example, some of the projects will use a development approach that involves business unit
representatives in many of the development and decision-making phases.
The Program Management Office Charter states that the Program Management Office will
develop a communications strategy to ensure members and stakeholders are able to exchange the
right information in a timely manner. Although the communications strategy has yet to be
formalized, we found that the Program Management Office maintains documentation showing
that they are collaborating with their internal and external stakeholders. For example, the
Program Management Office staff conducts periodic joint meetings with internal stakeholders,
such as the following IRS operating divisions: the Large Business and International Division,
Small Business/Self-Employed Division, and Tax Exempt and Government Entities Division.
The operating divisions attend joint meetings as needed based on their areas of responsibilities.
Topics of discussions include requests for approval to use a particular development process and
approval to begin projects and action items such as working to minimize the impact on filing
season projects.
The Program Management Office staff identified its external stakeholders; among them are the
Department of Health and Human Services and the Social Security Administration. Program
Management Office staff has been meeting with Department of Health and Human Services staff
to discuss the ACA provision to establish the Insurance Exchanges. On January 12, 2011, the
parties completed a Concept of Operations for Insurance Exchanges that will be used as a
baseline for further planning and development of this project.

Recommendation
Recommendation 1: The Chief Technology Officer should ensure that the Program
Management Office governance plan is updated to include the escalation procedures to timely
address unresolved issues and critical decisions.
       Management’s Response: IRS management agreed with the recommendation. The
       Chief Technology Officer will ensure that the ACA Program Management Office
       governance plan is updated to fully describe the escalation procedures to timely address
       any unresolved issues and critical decisions.




                                                                                         Page 13
                               The Modernization and Information Technology
                             Services Organization Is Effectively Planning for the
                                  Implementation of the Affordable Care Act



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the MITS organization’s planning efforts to implement the
Patient Protection and Affordable Care Act1 and the Health Care and Education Reconciliation
Act2 (hereafter referred to together as the ACA). To accomplish our objective, we:
I.         Determined how MITS organization management evaluated and assessed the impact of
           the ACA legislation on MITS organization operations and support for other MITS
           organization priorities.
           A. Interviewed MITS organization management to determine the process used to assess
              the impact of the ACA legislation.
           B. Reviewed documentation of the assessment methodology and results, including any
              reports from contractor assistance.
II.        Evaluated the effectiveness of the MITS organization’s approach and/or plan to
           implement the IT changes needed to support the ACA provisions.
           A. Interviewed MITS organization management and reviewed documentation to
              determine how the MITS organization planned to timely implement ACA-related IT
              changes, including developing IT systems and processes and obtaining the staff and
              funds needed to support the implementation of the ACA provisions.
           B. Determined how the Program Management Office plans to coordinate with internal
              stakeholders, for example, IRS business units and other MITS organization areas, to
              ensure ACA IT changes and new system developments or processes will timely and
              effectively support implementation of the ACA provisions without negatively
              affecting existing IT systems and processes.
           C. Determined how and when the Program Management Office plans to coordinate with
              external stakeholders (the States and Federal agencies such as the Department of
              Health and Human Services, the Social Security Administration, the Department of
              Veterans Affairs, and the Department of Defense) to ensure the Program Management
              Office provides the IT capabilities needed by these external stakeholders to
              implement the ACA provisions. We reviewed supporting documentation.



1
    Pub. L. No. 111-148, 124 Stat. 119 (2010).
2
    Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                            Page 14
                              The Modernization and Information Technology
                            Services Organization Is Effectively Planning for the
                                 Implementation of the Affordable Care Act



III.     Determined the effectiveness of the governance structure/process over MITS
         organization ACA activities.
         A. Interviewed Program Management Office personnel to determine the governance
            process overseeing ACA activities performed by the MITS organization.
         B. Reviewed documentation describing the finalized/approved governance structures
            and decision-making process (i.e., project identification, prioritization, approval, and
            monitoring) identified in Step III.A.
         C. Reviewed the meeting minutes/notes of the governance bodies (i.e., executive
            steering committees and investment review boards) overseeing the implementation of
            the ACA provisions.
IV.      Determined whether the structure of the Program Management Office supports the goals
         and mission of the IRS and the ACA.
         A. Obtained the Program Management Office Reorganization Proposal and Charter to
            identify the mission of the Program Management Office and determine whether it
            supports the IRS’s mission to implement the ACA tax provisions.
         B. Interviewed various Program Management Office personnel to discuss the staffing
            needed to implement the ACA provisions.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies and procedures for
establishing an organization. We evaluated these controls by interviewing management and by
reviewing policies and procedures such as the Internal Revenue Manual, the IRS Capital
Planning and Investment Control Guide, Federal guidance such as the Clinger-Cohen Act of
1996,3 and relevant supporting documentation.




3
 Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                            Page 15
                        The Modernization and Information Technology
                      Services Organization Is Effectively Planning for the
                           Implementation of the Affordable Care Act



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Diana Tengesdal, Audit Manager
Tina Wong, Lead Auditor
Joan Bonomi, Senior Auditor
Sarah White, Program Analyst




                                                                                     Page 16
                       The Modernization and Information Technology
                     Services Organization Is Effectively Planning for the
                          Implementation of the Affordable Care Act



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer, Operations OS:CTO
Associate Chief Information Officer, Affordable Care Act – Program Management Office
OS:CTO:ACA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                   Page 17
         The Modernization and Information Technology
       Services Organization Is Effectively Planning for the
            Implementation of the Affordable Care Act



                                                     Appendix IV

Management’s Response to the Draft Report




                                                               Page 18
  The Modernization and Information Technology
Services Organization Is Effectively Planning for the
     Implementation of the Affordable Care Act




                                                        Page 19
